February 22, 2007

KATHY A. AINSWORTH
VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT: Management Advisory – Delivery and Retail Standard Operating
         Procedures – National Capping Report (Report Number DR-MA-07-003)

This report presents the results of our self-initiated review of Delivery and Retail
operations in the Capital Metro, Eastern, Great Lakes, New York Metro, Northeast,
Pacific, Southeast, Southwest, and Western Areas (Project Number 06XG016DR009).
This report summarizes a series of nine reports on standard operating procedures
(SOP) issued under the Value Proposition Agreement between the Vice President,
Delivery and Retail, and the U.S. Postal Service Office of Inspector General’s (OIG)
Delivery and Retail Directorate. Our overall objective was to assess implementation of
the SOP.

All nine U.S. Postal Service areas and selected district and delivery and retail units
within the Capital Metro, Great Lakes, Southeast, and Southwest Areas implemented
the Delivery and Retail SOP for city and rural delivery and Function 4 operations.
Officials also certified delivery and retail units under Morning Standard Operating
Procedures (AMSOP) and Rural Delivery Standard Operating Procedures (RDSOP)
and conducted Function 4 reviews. Further, area managers implemented corrective
actions to improve Delivery Point Sequence (DPS) scores. Finally, area officials were
continuing to address the challenges associated with the “vital few” performers, which
include developing action steps for units identified as “vital few.”

Opportunities existed to improve implementation of the Delivery and Retail SOP within
the Postal Service. Although all nine Postal Service areas implemented the City
Delivery Operations SOP, we identified areas for improvement in AMSOP, integrated
operating plans (IOPs), volume recording, DPS, and matching workhours to workload.
We recommended Area Vice Presidents direct area managers of Delivery Program
Support to develop a plan to help all level 22 and above units achieve AMSOP
certification by the end of fiscal year 2006. We also recommended Area Vice
Presidents direct district managers to follow SOP for revising IOPs, measure mail
volume, and adhere to policies for matching workhours to workload. Further, we
recommended Area Vice Presidents direct managers to identify all units with 10 or more
rural routes for certification or self-review. Finally, we recommended Area Vice
Presidents direct district managers to require unit managers to staff retail window
operations using Retail Data Mart Window Operations Survey.

Area and district officials agreed with our findings and recommendations. Management
implemented corrective actions to address the findings in these reports. Therefore, we
are not making recommendations that require management’s comments.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Rita F. Oliver,
Director, Delivery and Retail, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick Donahoe
    William P. Galligan
    Area Vice Presidents
    Deborah A. Kendall
Delivery and Retail Standard Operating Procedures–                     DR-MA-07-003
 National Capping


                                   TABLE OF CONTENTS

 Executive Summary                                                               i

 Part I

 Introduction

     Background                                                                 1
     Objective, Scope, and Methodology                                          4
     Prior Audit Coverage                                                       5

 Part II

 Results

      Implementation of Standard Operating Procedures                           6

      City Delivery Operations                                                  9
         Morning Standard Operating Procedures                                  9
         Integrated Operating Plans                                            10
         Volume Recording                                                      11
         Delivery Point Sequencing                                             12
         Matching Workhours to Workload                                        15

      Rural Delivery Standard Operating Procedures                             17

      Function 4 Operations                                                    19
        Retail Data Mart Window Operations Survey                              19
        Function 4 Business Reviews                                            22

      “Vital Few” Lists                                                        24

 Appendix A. Prior Audit Coverage                                              27

 Appendix B. Performance Data Roll-up for Weeks 19 and 34                      31
 Appendix C. Delivery and Retail Standard Operating Procedures Areas           33
 for Improvement
Delivery and Retail Standard Operating Procedures –                                  DR-MA-07-003
 National Capping


                                   EXECUTIVE SUMMARY
 Introduction                   This report presents the results of our self-initiated review of
                                Delivery and Retail operations in the Capital Metro, Eastern,
                                Great Lakes, New York Metro, Northeast, Pacific,
                                Southeast, Southwest, and Western Areas. This report
                                summarizes a series of nine reports on standard operating
                                procedures (SOP) issued under the Value Proposition
                                Agreement between the Vice President, Delivery and Retail,
                                and the U.S. Postal Service Office of Inspector General’s
                                (OIG) Delivery and Retail Directorate. Our overall objective
                                was to assess implementation of the Delivery and Retail
                                SOP.

 Results in Brief               All nine Postal Service areas and selected district and
                                delivery and retail units within the Capital Metro, Great
                                Lakes, Southeast, and Southwest Areas implemented the
                                Delivery and Retail SOP for city and rural delivery and
                                Function 4 (customer service) operations. Officials also
                                certified delivery and retail units under Morning Standard
                                Operating Procedures (AMSOP) and Rural Delivery
                                Standard Operating Procedures (RDSOP) and conducted
                                Function 4 reviews. Further, area managers have
                                implemented corrective actions to improve Delivery Point
                                Sequence (DPS) scores. Finally, area officials were
                                continuing to address the challenges associated with the
                                “vital few” performers, which include developing action steps
                                for these units.

                                Opportunities existed to improve implementation of the
                                Delivery and Retail SOP within the Postal Service.
                                Although all nine Postal Service areas implemented the City
                                Delivery Operations SOP, we identified areas for
                                improvement in AMSOP, integrated operating plans, volume
                                recording, DPS, and matching workhours to workload.

                                We recommended Area Vice Presidents direct area
                                managers of Delivery Program Support to develop a plan to
                                help all level 22 and above units achieve AMSOP
                                certification by the end of fiscal year 2006. We also
                                recommended Area Vice Presidents direct district managers
                                to follow SOP related to revising IOPs, measure mail
                                volume, and adhere to policies for adequately matching
                                workhours to workload. Further, we recommended Area
                                Vice Presidents direct managers to identify all units with 10




                                                      i
Delivery and Retail Standard Operating Procedures –                                  DR-MA-07-003
 National Capping


                                or more rural routes for certification or self-review. Finally,
                                we recommended Area Vice Presidents direct district
                                managers to require unit managers to staff retail window
                                operations using Retail Data Mart Window Operations
                                Survey.

 Summary of                     Area and district officials agreed with our findings and
 Recommendations                recommendations. Management implemented corrective
                                actions to address the findings in these reports. Therefore,
                                we are not making recommendations that require
                                management’s comments.




                                                      ii
Delivery and Retail Standard Operating Procedures –                                                      DR-MA-07-003
 National Capping


                                               INTRODUCTION
    Background                        Each day the U.S. Postal Service receives and delivers over
                                      700 million pieces of mail. The Postal Service delivers mail
                                      to 144 million city and rural addresses across a network of
                                      approximately 37,000 post offices and retail outlets. To
                                      receive and deliver the mail, the Postal Service has an
                                      annual field budget of approximately $60 billion, roughly
                                      51 percent of which it uses for delivery and retail operations.
                                      Annual salary and benefits in fiscal year (FY) 2006 for rural
                                      and city carriers total about $22 billion and about $8 billion
                                      for Function 4 (customer service) operations.

                                      To ensure the efficient use of resources, the Vice President,
                                      Delivery and Retail, issued a letter on September 30, 2005,
                                      stating that all delivery and retail units will officially
                                      implement Standard Operating Procedures (SOP) beginning
                                      in FY 2006 to establish standard practices for managing all
                                      delivery and retail functions. In November 2005, Postal
                                      Service senior management officials requested quick
                                      response audit assistance from the U.S. Postal Service
                                      Office of Inspector General’s (OIG) Delivery and Retail
                                      Directorate to assess implementation of the SOP and
                                      determine how the areas are monitoring the units on the
                                      “vital few”1 list. In response to the request, the directorate
                                      began its nationwide review of the Postal Service’s
                                      implementation of the SOP in January 2006.

                                      The SOP consists of procedures to manage city and rural
                                      delivery and Function 4 operations. Postal Service officials
                                      must implement the SOP consistently and establish a
                                      review process to validate that the programs are operable.
                                      Officials must also take appropriate responsibility for
                                      developing plans that will assure the SOP are understood
                                      and functional.

                                      Morning Standard Operating Procedures (AMSOP) is an
                                      important component of City Delivery Operations SOP.
                                      AMSOP standardizes daily city carrier functions to align
                                      actual workhours to base workhours. The FY 2006 goal
                                      was to




1
    “Vital few” units are those with hours above standard that have the largest impact on national performance.




                                                            1
Delivery and Retail Standard Operating Procedures –                                                       DR-MA-07-003
 National Capping




                                     certify2 all level 223 and above Delivery Operations
                                     Information System (DOIS) sites that are AMSOP certified
                                     by September 30, 2006.

                                     For rural delivery, the Rural Delivery Standard Operating
                                     Procedures (RDSOP) standardizes daily rural carrier
                                     functions to align actual workhours to standard workhours.
                                     The FY 2006 goal was to certify4 75 percent of units with 10
                                     or more rural routes and those units identified as “vital few.”

                                     The Function 4 operations goal was to provide a
                                     standardized and comprehensive structure for the
                                     development of an integrated review cycle that continually
                                     identified and quantified savings opportunities. In addition,
                                     management should conduct Function 4 Business Reviews5
                                     to identify units with the largest opportunity for workhour
                                     improvements.

                                     A key component of the SOP was the identification of “vital
                                     few” units. These units have the largest opportunity for
                                     improvement in city and rural delivery and Function 4
                                     operations and require specific management actions.
                                     Postal Service Headquarters provided area officials with the
                                     “vital few” list quarterly, based on the performance of the
                                     previous quarter. The areas monitored the “vital few” units
                                     and developed action plans to correct their performance
                                     issues in city and rural delivery, and Function 4 operations.

                                     Postal Service Headquarters provided delivery and retail
                                     standardization training to area managers of Delivery
                                     Support Programs on September 7 and 8, 2005. In
                                     addition, Postal Service Headquarters issued a

2
  District program managers conduct a certification audit of a city delivery unit’s operations to determine if supervisors
are matching workhours to workload, reviewing time attendance reports, and monitoring use of authorized overtime.
Units must achieve a score of 95 or greater to achieve certification.
3
  A level 22 post office is one assigned to the postmaster of a post office according to the total number of workload
service credits attributed to the facility. The credits are a combination of the responsibilities of the postmaster, the
amount of employees, the size of the facility, and various operations performed within each post office.
4
  District program managers conduct a formalized rural management review focusing on improving efficiency in an
evaluated workload environment to achieve a closer alignment of actual to standard hours, reduced overtime, and
reduction in auxiliary assistance hours. Units must have a score of 85 or greater to achieve certification.
5
  The on-site review focuses on improving efficiency in an evaluated workload environment, which will result in closer
alignment of actual hours to budgeted hours. Function 4 SOP teams complete the on-site reviews and an Integrated
Operations Business Plan Committee provides critical support to ensure attainment of major organizational targets.




                                                            2
Delivery and Retail Standard Operating Procedures –                                 DR-MA-07-003
 National Capping


                                memorandum on October 13, 2005, to each area outlining
                                the area’s responsibility for training managers on the SOP.
                                Each area was responsible for training districts by October
                                31, 2005. The districts were responsible for training all
                                levels of management by November 15, 2005. Further,
                                Postal Service Headquarters requested that each area
                                establish a review process to validate whether the SOP
                                were adopted to ensure consistent implementation. Finally,
                                Postal Service Headquarters informed area officials that the
                                “vital few” list requires their attention and monitoring, which
                                includes action plans to correct performance issues in city
                                delivery, rural delivery, and Function 4 operations.

                                In August 2006, Postal Service Headquarters developed a
                                new training video, Basic Supervisory Tools for Managing in
                                a Changing Delivery Environment, for city and rural delivery.
                                The Postal Service has assigned this training two course
                                numbers: one for the combined city and rural delivery and
                                one for rural delivery only. Postal Service Headquarters
                                required management to provide copies of each training
                                video and conduct training according to a district-controlled
                                plan. District officials conducted training from September
                                through November 2006. As of December 2006, district
                                officials have trained approximately 14,048 employees for
                                the combined city and rural delivery, and 4,932 employees
                                for rural delivery only.

                                This training video is designed to assist delivery unit
                                managers and supervisors in focusing on their essential
                                responsibilities and core daily duties when managing a
                                successful delivery unit. The training videos identify
                                standard processes already in place and/or nearing
                                implementation. The training covers use of AMSOP and
                                Integrated Operating Plans, the Delivery Operations
                                Information System, and Managed Service Points as daily
                                tools and describes how each of the processes affect
                                downstream operations. The training video effectively
                                illustrates what tools to use, how and when to use them,
                                and why each is critical for effective daily management of
                                units. It also identifies tools and reports management must
                                use daily to monitor carriers’ performance in the office and
                                on the street.




                                                      3
Delivery and Retail Standard Operating Procedures –                                              DR-MA-07-003
 National Capping




    Objective, Scope, and         Our overall objective was to assess implementation of
    Methodology                   Delivery and Retail SOP in all nine Postal Service areas.
                                  Specifically, we determined whether area officials have
                                  implemented SOP in city and rural delivery and Function 4
                                  operations.

                                  During our review, we visited all nine areas and selected
                                  district and delivery and retail unit locations within the
                                  Capital Metro,6 Great Lakes,7 Southeast,8 and Southwest9
                                  Areas. We did not determine the effectiveness of the
                                  implemented SOP at this time, but plan to perform future
                                  reviews and identify opportunities to increase revenue,
                                  reduce costs, and improve customer service.

                                  We visited Postal Service Headquarters and all nine Postal
                                  Service areas to interview management officials and obtain
                                  performance data. We judgmentally selected districts and
                                  delivery and retail units in the Capital Metro, Great Lakes,
                                  Southeast, and Southwest Areas based on discussions with
                                  Postal Service Headquarters Delivery and Retail officials
                                  and review of FY 2006 delivery and retail performance data
                                  for week 10.10 We reviewed and analyzed performance
                                  data obtained from Postal Service systems from October
                                  2005 through May 2006 and discussed the results with
                                  Postal Service officials.11 We relied on data from these
                                  systems to conduct interviews and analysis; however, we
                                  did not directly audit the systems, but inquired about the
                                  relevance of the data to delivery and retail performance
                                  during our fieldwork.

                                  We conducted the review from August 2006 through
                                  February 2007 in accordance with President’s Council on
                                  Integrity and Efficiency, Quality Standards for Inspections.
                                  We discussed our observations and conclusions with
                                  management officials and included their comments where
                                  appropriate.


6
  The Capital and Baltimore Districts were judgmentally selected within the Capital Metro Area.
7
  The Central Illinois and Greater Indiana Districts were judgmentally selected within the Great Lakes Area.
8
  The Central Florida and Tennessee Districts were judgmentally selected within the Southeast Area.
9
  The Fort Worth and Houston Districts were judgmentally selected within the Southwest Area.
10
   Week 10 performance data was only for that specific week. The weekly performance data roll-up processes began
in week 14, with year-to-date information available beginning with week 19.
11
   During our review timeframe, we analyzed performance data roll-up information for week 19 year-to-date and
week 34 year-to-date.




                                                       4
Delivery and Retail Standard Operating Procedures –                               DR-MA-07-003
 National Capping


 Prior Audit Coverage           The OIG issued nine reports directly related to our
                                objectives. These reports identified opportunities to improve
                                the implementation of Delivery and Retail SOP. The OIG
                                also issued 12 audit reports related to delivery and retail
                                operations. While none of these reports are directly related
                                to our objective, they do identify opportunities to improve
                                management of delivery and retail operations. We have
                                included a complete listing of the reports in Appendix A.




                                                      5
Delivery and Retail Standard Operating Procedures –                                               DR-MA-07-003
 National Capping


                                                RESULTS
 Implementation of               Area, district, and unit officials implemented the SOP in city
 Standard Operating              and rural delivery and Function 4 operations which included:
 Procedures
                                      •   Completing SOP training from September through
                                          November 2005 for supervisors and managers
                                          responsible for city and rural delivery and Function 4
                                          (customer service) operations at the district and unit
                                          levels.12

                                      •   Developing approved action steps for units identified
                                          as “vital few.”

                                      •   Outlining future plans to complete reviews on the
                                          remaining AMSOP, RDSOP and Function 4 Business
                                          Review locations by September 30, 2006.

                                 Tables 1, 2, and 3 below indicate the implementation, by
                                 area, of AMSOP, RDSOP, and Function 4 Business
                                 Reviews.

                                 Table 1. Percentage of AMSOP Certified Level 22 and above DOIS Units

                                                                    % of AMSOP       Total Number
                                                                     Certified        of AMSOP
                                                    Area               units         Certified Units
                                            Southwest                    62            112 of 182
                                            New York Metro               53             80 of 152
                                            Eastern                      50            247 of 496
                                            Pacific                      46            175 of 377
                                            Southeast                    29             79 of 275
                                            Northeast                    26             47 of 180
                                            Great Lakes                  17             33 of 199
                                            Capital Metro                6               5 of 78
                                            Western                      4              14 of 287

                                          Source: Information provided by Postal Service Area officials




12
 The Capital Metro, Great Lakes, Pacific, Southeast, Southwest, and Western Areas conducted a leadership
meeting for its managers in city and rural delivery and Function 4 operations.




                                                       6
Delivery and Retail Standard Operating Procedures –                                                      DR-MA-07-003
 National Capping




                                                     Table 2. Percentage of RDSOP Certified Units

                                                                                             Total Number of
                                                                         % of RDSOP          RDSOP Certified
                                                     Area               Certified units            Units
                                           Pacific                             84               355 of 421
                                           New York Metro                      68                 39 of 57
                                           Southeast                           46               360 of 781
                                           Great Lakes                         38                53 of 140
                                           Northeast                           34                50 of 147
                                           Eastern                             14                75 of 520
                                           Capital Metro                       11                12 of 109
                                           Southwest                           9                 13 of 150
                                           Western                            013

                                              Source: Information provided by Postal Service Area officials

                                    Table 3. Percentage of Completed Function 4 Business Reviews

                                                                                                Total Number
                                                                                                of Completed
                                                                         % of Function 4         Function 4
                                                                            Business              Business
                                                     Area                   Reviews                Reviews
                                           Northeast                           94                 171 of 182
                                           Southwest                           91                 210 of 231
                                           New York Metro                      57                  79 of 138
                                           Eastern                             51                 154 of 299
                                           Southeast                           51                 154 of 304
                                           Great Lakes                         41                  95 of 233
                                           Capital Metro                       39                  22 of 57
                                           Pacific                             35                 111 of 320
                                           Western                              014

                                              Source: Information provided by Postal Service Area officials

                                    During our review timeframe, we analyzed data roll-up
                                    information for week 19 year-to-date and week 34 year-to-
                                    date. Tables 1 through 5 in Appendix B indicate, by area,
                                    the year-to-date variance of city delivery office hours to
                                    standard workhours; city deliveries per hour percentages;
                                    variance of rural hours to standard workhours; earned hour
                                    variance; and window staffing efficiency.




13
   The Western Area had not monitored the RDSOP certification of delivery units. However, during our review, area
officials began monitoring the certification of RDSOP for “vital few” performers and units with 10 or more rural routes.
14
   The Western Area officials used the Customer Service Variance to monitor Function 4 operations and identify
Function 4 budget expectations.




                                                           7
Delivery and Retail Standard Operating Procedures –                                                      DR-MA-07-003
 National Capping



                                      During weeks 19 and 34, the majority of the nine Postal
                                      Service areas experienced a decrease in the city delivery
                                      actual workhour percentages to standard workhours. (See
                                      Appendix B, Table 1.) In this same time frame, percentages
                                      of city deliveries per hour exceeded the same period last
                                      year percentages for eight of the nine Postal Service
                                      areas.15 (See Appendix B, Table 2.)

                                      Rural workhours to standard workhours percentages
                                      decreased in all nine areas during weeks 19 and 34. (See
                                      Appendix B, Table 3.)

                                      For Function 4 Business Reviews, during weeks 19 and 34,
                                      all nine areas experienced an increase in earned hour
                                      variances. (See Appendix B, Table 4.) Lastly, all nine
                                      areas experienced a decrease in window staffing efficiency.
                                      (See Appendix B, Table 5.)

                                      Based on our review of the City and Rural Delivery and
                                      Function 4 SOP, all nine areas implemented each
                                      component of the SOP except for selected aspects of
                                      AMSOP, Integrated Operating Plan (IOP), volume
                                      recording, delivery point sequencing (DPS), matching
                                      workhours to workload, RDSOP, and the Retail Data Mart
                                      Window Operations Survey.

                                      In addition, area officials continued to address challenges
                                      associated with the “vital few” performers, which included
                                      developing action steps for units identified as “vital few” and
                                      monitoring and tracking the performance of the districts and
                                      delivery and retail units. However, some officials expressed
                                      concern that the SOP used to identify and rank “vital few”
                                      units did not evaluate delivery units based on equal size and
                                      complexity.

                                      Western and Capital Metro Area officials took corrective
                                      action to improve AMSOP implementation during the
                                      reviews. Officials in the Pacific Area implemented
                                      corrective action to improve IOPs. Further, officials in the
                                      Capital Metro, Eastern, Great Lakes, New York Metro, and
                                      Pacific Areas carried out corrective action to improve DPS.
                                      Finally, Capital Metro, Pacific, and Western Area officials

15
     We are currently conducting a review to evaluate the accuracy of city delivery route mileage information.




                                                             8
Delivery and Retail Standard Operating Procedures –                                  DR-MA-07-003
 National Capping


                                took corrective action to improve RDSOP implementation.
                                (See Appendix C.)

 City Delivery                  Although all nine Postal Service areas implemented the City
 Operations                     Delivery Operations SOP, we identified areas for
                                improvement in AMSOP, IOPs, volume recording, DPS, and
                                matching workhours to workload.

 Morning Standard               Great Lakes and Southeast Area officials did not have a
 Operating Procedures           specific plan to help level 22 and above units achieve
                                AMSOP certification by the end of FY 2006.

                                As of April 2006, only 33 of the 199 (or 17 percent) level 22
                                and above delivery units in the Great Lakes Area were
                                AMSOP certified. Area officials stated that this number is
                                unacceptable. Great Lakes Area officials stated they have
                                made AMSOP requirements part of their overall strategies
                                for FY 2006. They discussed unit status at area operations
                                meetings and continued to monitor progress. The Area
                                Delivery Program Support group has developed a timeline
                                for each district and definitive completion dates for AMSOP
                                certification. The certification goals for the remaining non-
                                certified level 22 and above offices will be 49 percent, 58
                                percent, 91 percent, and 100 percent for quarters 1, 2, 3,
                                and 4, respectively.

                                In the Southeast Area, Central Florida District, two delivery
                                units were not AMSOP-certified and did not have corrective
                                action plans to address the improvement areas and achieve
                                certification. Area and district officials stated they made
                                AMSOP requirements part of their overall strategies for FY
                                2006. During the review, district officials followed up on the
                                units and developed a corrective action plan to certify the
                                units by the end of FY 2006. Area officials completed site
                                visits to each district to review corrective action plans and to
                                make certain management is executing corrective action
                                plans properly. Additionally, a designee at the area level
                                was assigned to: (1) train district offices and delivery units,
                                (2) require district offices to submit corrective action plans to
                                the area for review when delivery units do not achieve
                                AMSOP certification, and (3) track the progress of the
                                corrective action plans to verify completion.

                                The Postal Service implemented AMSOP nationally during
                                FY 2005 so city delivery units could standardize daily city




                                                      9
Delivery and Retail Standard Operating Procedures –                                   DR-MA-07-003
 National Capping


                                carrier functions to align actual workhours to base
                                workhours. The FY 2006 goal was that all level 22 and
                                above DOIS sites become AMSOP certified by September
                                30, 2006. The expectation was that “vital few” units develop
                                area approved action plans for improvement to avoid being
                                on the “vital few” list the next quarter and to help them
                                achieve certification status.

                                The primary intent and purpose of AMSOP certification was
                                to standardize daily carrier office functions. Effective
                                implementation will reduce workhour utilization, stabilize
                                carrier depart and return times, and enhance service to
                                customers.

 Integrated Operating           District and unit officials in the Great Lakes and Southwest
 Plans                          Areas did not ensure they timely resolved IOP
                                discrepancies or allowed sufficient time to process and sort
                                dispatch mail prior to carriers’ departure. Further, officials
                                did not follow procedures to ensure mail volume was
                                measured correctly.

                                Central Illinois and Greater Indiana District officials in the
                                Great Lakes Area did not always resolve and close IOP
                                discrepancies timely.

                                    •   We identified 676 pending IOP discrepancies in the
                                        Central Illinois District, as of May 2006. The
                                        discrepancies resulted primarily from processing
                                        machine errors, late dispatches, and DPS quality and
                                        volume. Central Illinois District officials said this
                                        occurred due to inadequate communication and
                                        follow through with processing center officials.

                                    •   In the Greater Indiana District, we identified
                                        22 pending IOP discrepancies. The discrepancies
                                        resulted primarily from processing machine errors,
                                        human errors, and issues with transporting the mail.
                                        We also noted district officials dismissed or closed
                                        262 discrepancies without resolution due to the
                                        amount of time that had lapsed since the units
                                        reported them.

                                Area officials plan to work with the districts in identifying
                                problematic resolution processes. They also planned to
                                coordinate with local program designees to improve




                                                      10
Delivery and Retail Standard Operating Procedures –                                                    DR-MA-07-003
 National Capping


                                    procedures and redefine accountabilities required to meet
                                    service standards and reduce costs by no later than
                                    October 31, 2006.

                                    Xxxxxxxxx delivery unit officials in the Southwest Area, Fort
                                    Worth District, did not ensure they allowed sufficient time to
                                    process IOPs and sort dispatch mail prior to carriers’
                                    departure. Specifically, the Xxxxxxxxx delivery unit used a
                                    Carrier Sequence Bar Code Sorter (CSBCS)16 to process
                                    mail at the facility. The current IOP allowed for mail arrival
                                    at 5 a.m. and 6 a.m. However, the 6 a.m. dispatch included
                                    both manual mail and mail requiring DPS sorting. Both
                                    could not be processed and then made available for carriers
                                    prior to their leaving the office to deliver mail. This condition
                                    existed primarily because unit officials had not updated the
                                    IOP to change the mail’s arrival time or the carriers’ arrival
                                    schedules. Area officials conducted training on unit
                                    requirements for mail arrival profiles and schedules to
                                    ensure mail availability meets unit operating plans.
                                    Additionally, the training addressed district requirements to
                                    update each unit operating plan to ensure efficiency using
                                    the national AMSOP and RDSOP review process. Area
                                    officials will also conduct periodic reviews to ensure
                                    compliance.

                                    The IOP will improve mail processing performance among
                                    plants and delivery units. When management does not
                                    resolve IOP discrepancies and other mail flow problems
                                    timely, delivery service and operational costs are negatively
                                    impacted.

 Volume Recording                   Xxxxx Xxxx delivery unit officials in the Southwest Area,
                                    Houston District, did not follow procedures to correctly
                                    measure mail volume by consolidating mail tubs prior to
                                    recording the mail volume. We observed that carriers
                                    retrieved mail from the staging area before the supervisor
                                    could record mail volume. According to delivery unit
                                    officials, this was a routine practice rather than a one-time
                                    occurrence. Even though carriers informed the supervisor,
                                    there was the potential for mail volume distortion when
                                    officials do not consolidate mail tubs and allow carriers to
                                    retrieve mail prior to volume recording. This condition
                                    existed because the supervisor’s primary focus was getting
16
   CSBCS is an automated machine that sorts mail for an individual carrier route. This sorting allows the mail to go
directly from the machine to the carrier for delivery.




                                                          11
Delivery and Retail Standard Operating Procedures –                                               DR-MA-07-003
 National Capping


                                 the carriers to the street, not following the SOP for
                                 measuring mail volume. Area officials conducted training
                                 that included proper mail recording procedures as part of
                                 the operating plans; they will also conduct periodic reviews
                                 to ensure compliance.

                                 Delivery unit management is responsible for proper mail
                                 measurement procedures. Mail staging must be
                                 standardized at each carrier case to facilitate accurate
                                 volume recording. Unit management must measure mail
                                 volume using a Data Collection Device (DCD) or record it on
                                 Postal Service Form 3921, Volume Recording Worksheet, if
                                 there is no DCD.

                                 Correct and accurate volume recording is essential to
                                 matching workhours to workload, which ultimately helps to
                                 control overtime and capture under time.

 Delivery Point                  In FY 2005, the national average DPS percentage was
 Sequencing                      approximately 77 percent, with some areas achieving DPS
                                 percentages in the 80s. As shown in Table 4, the Great
                                 Lakes, Pacific, Eastern, New York Metro, and Capital Metro
                                 Areas achieved DPS percentages below the national
                                 average DPS percentage of 77 percent.17
                                                              Table 4. Average DPS
                                                             Percentages for FY 2005

                                                                                Actual DPS%
                                                             Area               End of FY05
                                                  Western                            82
                                                  Northeast                          82
                                                  Southwest                          80
                                                  Southeast                          79
                                                  Great Lakes                        76
                                                  Pacific                            76
                                                  Eastern                            75
                                                  New York Metro                     72
                                                  Capital Metro                      71

                                                  National                             77

                                 Source: Information provided by Postal Service Headquarters officials

                                 DPS is the process of getting barcoded mail into the

17
  For FY 2006, the average DPS percentage was 80. Although the Great Lakes, Pacific, Eastern, New York Metro,
and Capital Metro Areas increased their DPS percentages slightly, these areas still fell below the average DPS
percentage.




                                                      12
Delivery and Retail Standard Operating Procedures –                                                    DR-MA-07-003
 National Capping


                                    carrier’s walk sequence so the carrier can deliver it without
                                    manual sorting before going to the street. The goal of DPS
                                    is to improve efficiency and reduce costs. Increasing DPS
                                    letters percentage equates to decreasing cased letter
                                    volume and, therefore, time spent by the carriers in the
                                    office.

                                        •    The Great Lakes Area’s DPS mail percentage was
                                             about 76 percent (or approximately 1 percent below
                                             the national average). Area officials stated their low
                                             DPS percentage was due to missing address
                                             information and inaccurate volume recording. Area
                                             officials implemented corrective actions to improve
                                             their DPS scores, which included meeting with district
                                             officials to discuss missing address information and
                                             inaccurate volume recording.

                                        •    The Pacific Area’s DPS percentage was about 76
                                             percent (or approximately 1 percent below the
                                             national average). Area officials stated their low DPS
                                             percentage was due in part to challenges the area
                                             faces due to a lack of new technology and
                                             incomplete addresses in high-rise buildings in the
                                             city.18 Area officials implemented corrective actions
                                             to improve their DPS scores, which included
                                             monitoring districts’ Address Management System
                                             coordinators’ attempts to resolve address problems
                                             such as those related to high-rise buildings and non-
                                             DPS offices.

                                        •    The Eastern Area’s DPS percentage was
                                             approximately 75 percent (or approximately 2 percent
                                             below the national average). Area officials stated
                                             their DPS percentage was low due to inaccuracy of
                                             database information and inaccurate mail volume
                                             recording.19 Area officials implemented corrective
                                             actions to improve their DPS scores, which included
                                             meeting with district officials on the accuracy of
                                             database information and accurately recording mail

18
   OIG is currently conducting an audit to assess the Postal Service’s management of the Address Management/
Quality Review results to ensure address information is correct and complete to effectively process and deliver the
mail in the Pacific Area.
19
   OIG is currently conducting an audit to assess the Postal Service’s management of the Address Management/
Quality Review results to ensure address information is correct and complete to effectively process and deliver the
mail in the Eastern Area.




                                                         13
Delivery and Retail Standard Operating Procedures –                                                   DR-MA-07-003
 National Capping


                                            volume to improve performance.

                                        •   The New York Metro Area’s DPS percentage was
                                            about 72 percent (or approximately 5 percent below
                                            the national average). Area officials stated their low
                                            DPS percentage was due in part to challenges
                                            associated with secondary descriptors in the New
                                            York District and urbanizations in the Caribbean
                                            District.20 Area officials implemented corrective
                                            actions to improve their DPS scores, which included
                                            meeting with district officials and establishing a
                                            cross-functional DPS team at the area level and in
                                            each district. The DPS teams consist of officials from
                                            the Plant, Customer Service, Address Management
                                            Systems, Marketing, and the District.

                                        •   The Capital Metro Area’s DPS percentage was
                                            approximately 71 percent (or approximately 6 percent
                                            below the national average). Capital Metro Area
                                            officials stated their low DPS percentage was due in
                                            part to problems with many business routes for which
                                            address changes were not put in the system in a
                                            timely manner.21 Delays in mail flow from the plant to
                                            the unit and from the unit to the plant affected DPS
                                            percentages in the Baltimore District. Area officials
                                            implemented corrective actions to improve their DPS
                                            scores, which included meeting with district officials
                                            and establishing a cross-functional DPS team at the
                                            area level and in each district. The DPS teams
                                            consist of officials from the Plant, Customer Service,
                                            Address Management Systems, Marketing, and the
                                            District.

 Matching Workhours to             Delivery unit officials in the Capital Metro and Great Lakes
 Workload                          Areas did not always adhere to policies for adequately

20
   For the New York Metro Area, the New York and the Caribbean Districts have DPS percentage goals set below the
national percentage. Postal Service Headquarters has approved a DPS percentage goal of 70 percent for the New
York District because this district continues to have the greatest percentage of secondary descriptors in the country.
Secondary addressing encumbers over 97 percent of New York District’s possible deliveries, which must be
physically present on the mailpiece in order to receive the finest depth of sort. If the apartment number is missing
from the mailpiece then it cannot be DPS. Postal Service Headquarters has also approved a DPS percentage goal of
15 percent for Caribbean District because of urbanizations that require a third line in the address and Spanish
language syntax.
21
   OIG is currently conducting an audit to assess the Postal Service’s management of the Address Management/
Quality Review results to ensure address information is correct and complete to effectively process and deliver the
mail in the Capital Metro Area.




                                                         14
Delivery and Retail Standard Operating Procedures –                                  DR-MA-07-003
 National Capping


                                matching workhours to workload. They stated this occurred
                                because they did not always complete PS Forms 1017-B,
                                Unauthorized Overtime Record, to record unauthorized
                                overtime occurrences. Officials stated other duties were
                                higher priority. Also, unit officials did not use the form
                                consistently nor did they cite corrective actions on the
                                forms.

                                In addition, Capital Metro Area delivery unit officials stated
                                workhours were not matched because they did not always
                                remember to update Managed Service Points (MSP) base
                                information when route changes occurred. We reviewed the
                                base MSP information for all routes at the four delivery units
                                sampled and identified 72 of 113 routes where office or
                                street times had excessive interval times or were out of
                                sequence.

                                Further, Capital Metro Area delivery unit officials stated this
                                occurred because they often approved time based on
                                knowledge of the route and what they thought was
                                reasonable for parcels and accountable mail rather than
                                using information from the last route inspection in DOIS.
                                The sampled delivery units did not keep route base
                                information readily available for parcels and accountable
                                packages. Unit officials stated adding accountable mail to
                                the listing of base parcels was useful because this data is
                                critical to knowing whether the volume for these items
                                increased or decreased each day on a carrier’s route.
                                Finally, unit officials did not consistently use the DOIS
                                performance reports to document carriers' performance
                                feedback. Unit officials stated they conducted verbal
                                performance discussions with carriers. However, they did
                                not have enough time to document expectations and
                                performance discussions.




                                                      15
Delivery and Retail Standard Operating Procedures –                                  DR-MA-07-003
 National Capping




                                In their management comments, Great Lakes Area officials
                                stated that, while they recognize that accurate use of PS
                                Form 1017-B contributes to improving employee
                                performance, it is only one component of properly managing
                                the delivery unit. Management also stated they will
                                disseminate an area directive to all district offices relative to
                                compliance expectations regarding form utilization.

                                In their management comments, Capital Metro Area officials
                                stated the effective use of DOIS performance reports is a
                                major tool necessary for monitoring and improving delivery
                                performance. The reports also help the delivery staff
                                maintain a full understanding of components used to
                                determine performance targets. Management also stated
                                they will enhance this effort through daily interaction with
                                postmasters, area managers, and managers of Post Office
                                Operations as it relates to the nonperforming delivery units
                                that exceed projected workhours.

                                Postal Service procedures require management to
                                document expectations and performance through proper
                                use of control forms including the DOIS performance
                                reports. Keeping a written record of carriers’ performance
                                feedback is important so management can use it as
                                reference to reduce overtime costs and improve quality of
                                service.

                                The delivery unit supervisor’s primary responsibility is to
                                match workhours to workload. All other delivery unit
                                management personnel must filter out any duties that do not
                                support the supervisor’s primary responsibility. Supervisors
                                must concentrate on ensuring that all workload is properly
                                assessed and the tools used are accurate.

                                Inadequately monitoring carrier street performance may
                                impact customer service and supervisors cannot effectively
                                consult and correct carrier performance issues to assist in
                                managing overtime hours. Further, supervisors are unable
                                to accurately determine whether the volume for parcels and
                                accountable packages increases or decreases each day on
                                a carrier’s route.




                                                      16
Delivery and Retail Standard Operating Procedures –                                                DR-MA-07-003
 National Capping




 Rural Delivery                   Although all nine Postal Service areas implemented the
 Standard Operating               RDSOP, we identified areas for improvement in RDSOP
 Procedures                       certification reviews.

                                  Officials in the Capital Metro, Great Lakes, Southeast, and
                                  Western Areas had not identified delivery and retail units
                                  with 10 or more rural routes. This occurred in the Capital
                                  Metro and Great Lakes Areas because they were preparing
                                  for the 12-day rural mail count that began on February 24,
                                  2006. In addition, in the Great Lakes and Southeast Areas,
                                  officials indicated their primary focus was reviewing and
                                  certifying rural units on the “vital few” list. However, during
                                  our review, Capital Metro and Great Lakes Areas officials
                                  identified all units with 10 or more rural routes and they had
                                  begun conducting their certification audits. In their
                                  comments, Southeast Area management agreed to develop
                                  a spreadsheet to identify all units with 10 or more rural
                                  routes for certification and routes for self-review. Further, in
                                  the Western Area, officials stated that they did not fully
                                  understand the Postal Service Delivery and Retail
                                  directives. However, during our review, area officials
                                  identified units that had achieved RDSOP certification and
                                  began monitoring certifications in the 3rd quarter of FY 2006.

                                  Officials in the Pacific Area experienced difficulty retaining
                                  Rural Carrier Associates (RCA) for rural delivery routes.
                                  According to the RCA retention tracking data records, the
                                  Pacific Area had a 59 percent retention rate for the RCA
                                  compared to the national average of 67 percent. Area
                                  officials have begun conducting exit interviews to better
                                  understand why RCAs are leaving. They are also directing
                                  RCAs to Postal Service units that better meet their work
                                  schedule expectations.22

                                  Postal Service Headquarters officials established RDSOP
                                  reviews as a national requirement for FY 2006, to help
                                  create a consistent understanding of the requirements
                                  necessary for well-run, highly efficient rural delivery
                                  operations. These reviews focus on improving efficiency in
                                  an evaluated workload environment, which will result in
22
  We are conducting a review to determine whether the Postal Service has established effective RCA retention
programs within district locations.




                                                       17
Delivery and Retail Standard Operating Procedures –                                DR-MA-07-003
 National Capping


                                closer alignment of actual to standard hours, reduced
                                overtime, and a reduction in auxiliary assistance hours. The
                                RDSOP required 75 percent of all units identified as “vital
                                few” and units with 10 or more rural routes to achieve
                                certification status by September 30, 2006. Units with less
                                than 10 rural routes and not part of “vital few” will complete
                                a self-review.

                                The Postal Service's goal of improving efficiency in an
                                evaluated workload environment and alignment of actual to
                                standard hours could be adversely impacted if units are not
                                identified for review.




                                                      18
Delivery and Retail Standard Operating Procedures –                                  DR-MA-07-003
 National Capping




 Function 4                     Although all nine Postal Service areas implemented the
 Operations                     Function 4 Operations SOP, we identified areas for
                                improvement in the Retail Data Mart Window Operations
                                Survey and Function 4 Business Reviews.

 Retail Data Mart               Unit officials in the Capital Metro and Southwest Areas did
 Window Operations              not adequately staff retail window operations to meet Retail
 Survey                         Data Mart Window Operations Survey (RDM WOS)
                                standards for staffing. The RDM WOS standard for retail
                                window operations is 100 percent. This is a ratio between
                                earned and actual hours. Additionally, unit officials in the
                                Southwest Area did not ensure management accurately
                                recorded retail workhours.

                                In the Capital Metro Area, Baltimore and Capital Districts,
                                the above condition occurred because unit officials received
                                retail standard operating procedures from district officials
                                mandating they place a sales and services associate at
                                every window for full coverage during peak hours of
                                11:00 a.m. through 2:00 p.m. In addition, unit officials
                                stated they were overstaffing to meet the Mystery Shopper
                                wait-time-in-line requirement.

                                In their management comments, Capital Metro Area officials
                                stated they provided training to all supervisors in Customer
                                Service with retail responsibility on the proper use of RDM
                                WOS. District managers in this area stated they expect
                                managers and postmasters to take a more active role in
                                promoting proper staffing of retail units and capturing
                                identified cost savings from on-site reviews. In addition, the
                                Window Operations Survey Exception Report would be
                                used to identify “vital few” offices for the first pay period of
                                FY 2007. Baltimore District management stated they will
                                provide sign-off sheets to the district showing that every
                                postmaster, manager, and supervisor has been trained on
                                RDM WOS and is properly using the tool. In addition,
                                management stated Operations Programs Support will be
                                conducting office reviews to ensure management is
                                following these recommendations.

                                According to officials in the Southwest Area, the primary
                                factors which contributed to the less than expected
                                performance were inadequate accountability and
                                understanding regarding RDM WOS standards. In addition,




                                                      19
Delivery and Retail Standard Operating Procedures –                                                   DR-MA-07-003
 National Capping


                                   officials did not use lobby directors as needed during peak
                                   periods which impacted efficiency at the retail counter.

                                   Additionally, in the Southwest Area, retail window workhours
                                   were not accurately recorded and officials did not capture
                                   cost savings resulting from business performance reviews.
                                   This condition occurred because management did not track
                                   and monitor the results from Function 4 Business Reviews.

                                   As a result, unit management cannot adequately schedule
                                   window coverage needed to meet customer demands and
                                   area and district officials cannot establish realistic annual
                                   work budget goals at the area and district levels.

                                   In their management comments, Southwest Area officials
                                   stated the Fort Worth and Houston District managers were
                                   scheduled to receive RDM WOS training in September
                                   2006. The training emphasized the proper method to
                                   schedule retail window operations and use of labor
                                   distribution codes. Management further stated the data will
                                   be retrieved daily by each unit from RDM WOS and will be
                                   monitored by the district as well as the area.

                                   In addition, in the Southwest Area, unit officials did not
                                   ensure personnel accurately recorded retail window hours
                                   for October, November, and December 2005. Management
                                   officials attributed the inaccuracies to three factors:

                                        •    Clerks did not consistently clock in under the correct
                                             operation code and often did not swipe the time clock
                                             when switching from one operation to another.

                                        •    Newly injured employees’ workhours were often
                                             budgeted from the labor distribution code (LDC) 68 or
                                             69.23 However, these hours are already absorbed
                                             into the functional area in which an employee is
                                             actually assigned such as LDC 43, 45 or 48.24

                                        •    Non-revenue transactions were not consistently
23
  LDC 68 and 69 identify permanently and temporarily disabled employees, respectively.
24
  LDC 43 identifies non-supervisory hours used at stations, branches, and associate offices for manual distribution of
mail to carrier routes. It includes distribution of presort bundles and sacks and spreading of mail to carrier routes.
LDC 45 identifies all non-supervisory hours of employees serving customers at window, firm callers, general delivery
customers, and other activities in support of retail operations. LDC 48 identifies non-supervisory hours of customer
service employees assigned to dispatch activities, office work, recordkeeping, and miscellaneous retail activities at
stations, branches, and associate offices, including standby, steward’s duty, travel, and meeting times.




                                                         20
Delivery and Retail Standard Operating Procedures –                                                     DR-MA-07-003
 National Capping


                                             entered into the Point-of-Service ONE (POS ONE)
                                             system because non-revenue transactions were
                                             considered a lower priority.

                                    In their comments, Southwest Area management stated
                                    that, beginning October 2, 2006, the area would institute a
                                    tracking and monitoring system to compare “actual versus
                                    earned” LDC 45 hours to identify “vital few” units.
                                    Management also stated each unit would retrieve data from
                                    RDM WOS daily and the district and area will monitor it.

                                    Retail management is responsible for the accuracy of the
                                    entries on time cards, ensuring clerks “clock in” on the
                                    correct LDC, and ensuring they correctly and consistently
                                    record all time. In addition, management must consistently
                                    enter non-revenue transactions into POS ONE to detail the
                                    total number of transactions and time spent on these
                                    transactions. This data is critical to managing staffing and
                                    scheduling.

                                    The RDM WOS tool is used during standardized Function 4
                                    (customer service) on-site reviews at retail postal units. The
                                    tool provides information on the retail workload based on
                                    the number and types of transactions conducted at the retail
                                    counter.25 Postal officials convert the retail workload
                                    information to earned workhour data. Also, the results
                                    assist management in determining productivity levels and
                                    the proper staff scheduling to meet customer demands and
                                    attain established annual workhour budget goals. The RDM
                                    WOS provides information on ranking opportunity in retail
                                    based on actual performance versus earned workhours.

                                    Unit managers and supervisors are the first in line to correct
                                    deficiencies and ensure that customer service is upheld
                                    while maintaining a balance of employee workhours to
                                    workload. While managing clerks to meet their earned
                                    hours, managers are held accountable to control their wait
                                    time in line scores. Lobby directors can also assist in
                                    managing wait time in line.




25
  The types of transactions include Priority Mail® and Express Mail®, stamp and money order purchases, passports,
and mailboxes. Postmasters assign mobile units, at their discretion, to retail postal units in order to provide limited
retail activity in remote locations, such as retirement homes and community centers.




                                                          21
Delivery and Retail Standard Operating Procedures –                                                 DR-MA-07-003
 National Capping


 Function 4 Business              In the Southeast and Southwest Areas district officials did
 Reviews                          not perform Function 4 Business Reviews to achieve
                                  business goals.26

                                  Unit officials in the Southeast Area and the Central Florida
                                  and Tennessee Districts had not assembled a Function 4
                                  team or developed the Integrated Operations Business Plan
                                  Committee to prevent review delays and achieve the
                                  business plan goals. Central Florida District officials stated
                                  that weather conditions were a contributing factor in their
                                  delay in assembling a team to complete the scheduled
                                  Function 4 reviews. Tennessee District officials delayed
                                  conducting Function 4 reviews due to staff turnovers
                                  associated with the removal of the previous manager of
                                  Delivery and Customer Service Programs. Further, officials
                                  in both districts had not established formal Integrated
                                  Operations Business Plan Committees but participated in
                                  informal meetings on an “as-needed basis.”

                                  Southeast Area officials implemented corrective actions
                                  during the review. Central Florida District officials hired two
                                  retired postal employees familiar with the review process to
                                  complete the scheduled Function 4 reviews and ensure the
                                  district achieves its business plan goals by the end of the
                                  fiscal year. In addition, Tennessee District officials
                                  designated an Acting Manager, Delivery and Customer
                                  Services Program, to oversee the completion of the district’s
                                  scheduled Function 4 reviews and establish a committee to
                                  ensure achievement of the plan goals by the end of the
                                  fiscal year.

                                  Unit officials in the Southwest Area and the Houston and
                                  Fort Worth Districts did not track unit progress or capture
                                  savings resulting from business performance reviews. Unit
                                  officials in the Houston District conducted a Function 4
                                  Business Review during May 2005, but missed the
                                  opportunity to capture the identified opportunity savings. In
                                  the Fort Worth District, unit progress tracking began on
                                  Function 4 Business Reviews only after the SOP was
                                  issued.

                                  Southwest Area officials stated the results of the reviews

26
  We are currently reviewing the Postal Service’s Function 4 Business Plan review process to determine whether this
process is efficient.




                                                        22
Delivery and Retail Standard Operating Procedures –                               DR-MA-07-003
 National Capping


                                are designed to adjust the operating budget to realize yearly
                                savings. Without an effective tracking and monitoring
                                system, area and district officials cannot provide the
                                feedback necessary for increased performance. Southwest
                                Area management officials also stated that, beginning
                                October 2, 2006, the area would institute a tracking system
                                to track all Function 4 operations for Cost Ascertainment
                                Grouping A through G offices and evaluate workhours
                                versus workload. Management stated that, through proper
                                scheduling, they will capture workhours. In addition, they
                                stated each district and area will monitor and act on the
                                data.

                                The SOP requires the area to monitor performance and
                                track adherence to approved cluster Function 4 Business
                                Plans. The SOP also requires district officials to implement
                                the results of the Function 4 reviews and develop a tracking
                                system to capture anticipated workhours and the
                                complement savings.

                                Postal Service Headquarters officials established Function 4
                                reviews as a national requirement for FY 2006 to help
                                create a consistent understanding of the requirements
                                necessary for well-run, highly efficient customer service
                                operations. Also, the Function 4 reviews target postal
                                facilities for on-site reviews where opportunities exist for
                                workhour reductions. Function 4 SOP require utilization of
                                the Business Review Plan to establish on-site review steps
                                that ultimately lead to a standardized process cycle, savings
                                opportunities, performance achievements, and applied
                                performance expectations. The on-site review focuses on
                                improving efficiency in an evaluated workload environment,
                                which will result in closer alignment of actual to budgeted
                                hours. Function 4 review teams complete the on-site
                                reviews and an Integrated Operations Business Plan
                                Committee provides critical support to ensure attainment of
                                major organizational targets.




                                                      23
Delivery and Retail Standard Operating Procedures –                                    DR-MA-07-003
 National Capping




 Vital Few Lists                Officials in all nine Postal Service areas continued to
                                address the challenges associated with the “vital few”
                                performers. To address performance issues, area officials
                                have developed corrective actions to improve performance
                                for units identified as “vital few.”

                                    •   Capital Metro Area officials tasked all districts with
                                        assigning a Labor Distribution Code 45 improvement
                                        coordinator in an effort to improve retail efficiency.
                                        Area officials also monitor and track performance by
                                        reviewing DOIS performance reports on a weekly
                                        basis to identify underperforming units. Finally,
                                        district officials conduct weekly teleconferences with
                                        those units identified on the “vital few” list to improve
                                        performance.

                                    •   Eastern Area officials conducted weekly meetings
                                        with district officials on the city and rural delivery and
                                        Function 4 operations. In addition, area officials
                                        developed the “Retail Optimization Plan” to review
                                        five offices in each district that have the greatest
                                        negative effect on Function 4 reviews.

                                    •   Great Lakes Area officials monitored and tracked the
                                        performance of the districts and delivery and retail
                                        units. In addition, the Area Manager of Delivery
                                        Programs Support addressed “vital few” issues
                                        during the area’s leadership meetings. The area
                                        office also conducted business reviews of district and
                                        delivery and retail units. The area requires units to
                                        provide action plans for deficiencies identified during
                                        these reviews.

                                    •   New York Metro Area officials conducted counts and
                                        inspections and recorded the results on Postal
                                        Service Form 1840, Carrier Delivery Route Summary
                                        of Count and Inspection, to capture a more accurate
                                        profile of the mail. In addition, area officials held
                                        weekly teleconferences with appropriate district and
                                        unit officials to discuss performance issues.

                                    •   Northeast Area officials improved performance by
                                        using the Boston District as a benchmark for the
                                        other districts. In addition, area officials conduct




                                                      24
Delivery and Retail Standard Operating Procedures –                                    DR-MA-07-003
 National Capping


                                        counts and inspections and record the results on
                                        Postal Service Form 1840, Carrier Delivery Route
                                        Summary of Count and Inspection, to capture a more
                                        accurate profile of the mail. Area officials conducted
                                        weekly teleconferences with district officials on the
                                        city and rural delivery and Function 4 operations to
                                        discuss areas that need improvement. They also
                                        visited low performing units to observe firsthand the
                                        issues experienced in the field.

                                    •   Pacific Area officials audited “vital few” units and held
                                        weekly teleconferences to determine the causes of
                                        low performance. Officials plan to continue placing
                                        emphasis on the SOP with the “vital few” units, which
                                        will make the process of identifying work outside
                                        standard time allowances easier for officials.

                                    •   Southeast Area officials conducted weekly
                                        teleconferences on the “vital few” units with district
                                        officials. These teleconferences discussed
                                        developing and approving action steps,
                                        communicating management expectations, and
                                        determining the causes for the discrepancies.
                                        Officials assigned managers of Postal Retail
                                        Operations in each district to identify “vital few” units
                                        and oversee retail performance. They also provided
                                        placards and other tools to delivery unit managers to
                                        improve labor distribution code charges. Officials
                                        also plan to continue emphasizing the SOP
                                        standardization with the “vital few,” which will make
                                        the process easier for officials to identify work outside
                                        standard time allowances.

                                    •   Southwest Area officials conducted weekly
                                        teleconference meetings on “vital few” units with
                                        district officials. The teleconferences include
                                        discussions of each district’s performance and
                                        potential actions required to address their issues.
                                        Participants determine what drives performance and
                                        identify best practices in other districts as a guide to
                                        making improvements.

                                    •   Western Area officials emphasized the SOP and
                                        standardization with the “vital few” to assist officials in
                                        identifying work outside standard time allowances.




                                                      25
Delivery and Retail Standard Operating Procedures –                                    DR-MA-07-003
 National Capping


                                        Area officials will maintain SOP training materials and
                                        certification on their intranet to give all employees the
                                        access and the opportunities to enhance their skills in
                                        city delivery, rural delivery, and Function 4
                                        operations.

                                “Vital few” units are those with hours above standard that
                                have the largest impact on national performance. The SOP
                                requires postal officials to develop and approve action steps
                                for these units and establish management expectations
                                using the year-to-date performance in the category of
                                percent to standard hours. Postal Service Headquarters
                                officials provide area officials the city and rural delivery “vital
                                few” list at the beginning of each quarter based on the
                                performance of the previous quarter. They also track and
                                monitor Function 4 review results and provide them to the
                                field and senior operations managers at headquarters.
                                Results cover the number of reviews completed by date
                                versus reviews planned, revised earned workhours, amount
                                of budget adjustment, actual complement, earned Function
                                4 complement, and total efficiency improvement compared
                                to the baseline data.




                                                      26
Delivery and Retail Standard Operating Procedures –                                           DR-MA-07-003
 National Capping


                                                 APPENDIX A
                                            PRIOR AUDIT COVERAGE
                                                                                                Date
                                                                                                Final
                                     Report                                     Report         Report
                                     Name                                       Number         Issued

Delivery and Retail Standard Operating Procedures – Capital Metro Area        DR-MA-07-001    10/16/06

Delivery and Retail Standard Operating Procedures – Southwest Area            DR-MA-06-009     9/30/06

Delivery and Retail Standard Operating Procedures – Great Lakes Area          DR-MA-06-008     9/29/06

Delivery and Retail Standard Operating Procedures – New York Metro Area       DR-MA-06-005     9/28/06

Delivery and Retail Standard Operating Procedures – Eastern Area              DR-MA-06-006     9/28/06

Delivery and Retail Standard Operating Procedures – Western Area              DR-MA-06-003     9/27/06

Delivery and Retail Standard Operating Procedures – Pacific Area              DR-MA-06-002     9/27/06

Delivery and Retail Standard Operating Procedures – Southeast Area            DR-MA-06-007     9/25/06

Delivery and Retail Standard Operating Procedures – Northeast Area            DR-MA-06-004     9/8/06

City Letter Carrier Operations – Greater Indiana District                     DR-AR-06-003     3/28/06

AM Standard Operating Procedures – Fiscal Year 2005 Financial Installation
Audit                                                                         FF-AR--06-096    3/20/06

City Letter Carrier Operations – Detroit District                             DR-AR-06-002     2/08/06

Address Management Systems – Southwest Area – Rio Grand District              DR-AR-06-001     1/25/06

City Letter Carrier Operations – Chicago District                             DR-AR-05-019     9/29/05

City Letter Carrier Operations – Santa Ana District                           DR-AR-05-013     8/8/05

City Letter Carrier Operations – San Diego District                           DR-AR-05-014     8/8/05

City Letter Carrier Operations – Rio Grande District                          DR-AR-05-009     12/2/04

Function 4 – Customer Service Operations                                      DR-AR-04-014     9/30/04

City Letter Carrier Office Preparation in the Dallas District                 DR-AR-04-005     7/26/04

City Letter Carrier Street Management and Route Inspections in the Fort
Worth District                                                                DR-AR-04-001     6/22/04

City Carrier Productivity – Letter Carrier Delays in the Baltimore District   TD-AR-03-011     7/28/03




                                                                    27
Delivery and Retail Standard Operating Procedures –                                          DR-MA-07-003
 National Capping


                         APPENDIX B
         PERFORMANCE DATA ROLL-UP FOR WEEKS 19 AND 34
                   Table 1. City Delivery Actual Workhours Percentage
                                  to Standard Workhours

                                        Area               Week 19     Week 34
                              Capital Metro                 106         105
                              Eastern                       103         103
                              Great Lakes                   108         107
                              New York Metro                102         101
                              Northeast                      97         101
                              Pacific                       101         102
                              Southeast                      99          98
                              Southwest                     111         109
                              Western                       103         103

                     Source: Information provided by Postal Service Headquarters officials


                       Table 2. City Deliveries per Hour Comparison
                          to Same Period Last Year Percentages

                                        Area               Week 19     Week 34
                              Capital Metro                 1.29        1.58
                              Eastern                        .90        1.20
                              Great Lakes                    .82        1.43
                              New York Metro                1.20        1.66
                              Northeast                     1.22        1.83
                              Pacific                       2.41        2.14
                              Southeast                     2.01        1.49
                              Southwest                     2.71        1.86
                              Western                       1.56        1.54

                     Source: Information provided by Postal Service Headquarters officials


                          Table 3. Rural Delivery Actual Workhours
                             Percentage to Standard Workhours

                                       Area                Week 19     Week 34
                             Capital Metro                  8.51        6.27
                             Eastern                        5.30        4.18
                             Great Lakes                    6.44        5.04
                             New York Metro                 8.68        6.38
                             Northeast                      4.77        4.26
                             Pacific                        6.48        5.10
                             Southeast                      5.04        4.15
                             Southwest                      5.31        4.06
                             Western                        5.88        4.50

                     Source: Information provided by Postal Service Headquarters officials




                                                      28
Delivery and Retail Standard Operating Procedures –                                          DR-MA-07-003
 National Capping


                          Table 4. Function 4 Business Reviews
                      Earned Hour Variances (rounded in thousands)

                                       Area                Week 19     Week 34
                             Capital Metro                  318          611
                             Eastern                        857         1,725
                             Great Lakes                    650         1,320
                             New York Metro                 339          667
                             Northeast                      363          783
                             Pacific                        610         1,173
                             Southeast                      654         1,270
                             Southwest                      488          952
                             Western                        805         1,618

                     Source: Information provided by Postal Service Headquarters officials


                      Table 5. Function 4 Business Reviews Window
                              Staffing Efficiency Percentages

                                       Area                Week 19     Week 34
                             Capital Metro                  76.6        74.8
                             Eastern                        79.6        77.2
                             Great Lakes                    79.4        76.6
                             New York Metro                 86.8        85.6
                             Northeast                      84.8        81.7
                             Pacific                        83.0        82.0
                             Southeast                      81.1        79.5
                             Southwest                      81.3        79.6
                             Western                        78.5        75.7

                     Source: Information provided by Postal Service Headquarters officials




                                                      29
      Delivery and Retail Standard Operating Procedures –                                             DR-MA-07-003
       National Capping


                                APPENDIX C
           DELIVERY AND RETAIL STANDARD OPERATING PROCEDURES
                         AREAS FOR IMPROVEMENT
                      Capital              Great
                      Metro     Eastern    Lakes      New York      Northeast   Pacific   Southeast   Southwest   Western
    SOP Areas          Area      Area       Area      Metro Area      Area       Area       Area        Area       Area
City Delivery
AMSOP                  No*        No        Yes          No            No        No         Yes         No           No*
Integrated             No         No        Yes          No            No        No*        No          Yes          No
Operations
Delivery Point         No*       No*        No*          No*           No        No*         No          No          No
Sequencing
Collection Point       No         No        No           No            No        No          No          No          No
Management
Scanning               No         No        No           No            No        No          No          No          No
Performance
Matching               Yes        No        Yes          No            No        No          No          No          No
Workhours to
Workload
Volume Recording       No         No        No           No            No        No          No         Yes          No
Route Evaluations      No         No        No           No            No        No          No         No           No
and Adjustments
“Vital Few” Service    No         No        No           No            No        No          No          No          No
Improvements
Rural Delivery
RD SOP                 No*        No        Yes          No            No        No*        Yes          No          No*
Growth and             No         No        No           No            No        No         No           No          No
Delivery Point
Mgmt
Function 4
Function 4             No         No        No           No            No        No          No         Yes          No
Business Review
RDM WOS                Yes        No        No           No            No        No          No         Yes          No

      * No – Corrective actions taken during review
        No – Improvements Not Needed
        Yes – Improvements Needed

      Source: Information provided by Postal Service officials




                                                               30
